<html>
<title> - NOMINATION OF SUSAN GIBSON TO BE INSPECTOR GENERAL OF THE NATIONAL RECONNAISSANCE OFFICE</title>
<body><pre>[Senate Hearing 114-597]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 114-597

                    NOMINATION OF SUSAN GIBSON TO BE
                   INSPECTOR GENERAL OF THE NATIONAL
                         RECONNAISSANCE OFFICE

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         TUESDAY, JUNE 7, 2016

                               __________

      Printed for the use of the Select Committee on Intelligence
      
      
      
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       
      


         Available via the World Wide Web: http://www.fdsys.gov
                    
                    
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
22-967 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a2c5d2cde2c1d7d1d6cac7ced28cc1cdcf8c">[email&#160;protected]</a>                     
                    
                    
                    
                    
                    
                    
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
              DIANNE FEINSTEIN, California, Vice Chairman

JAMES E. RISCH, Idaho                RON WYDEN, Oregon
DANIEL COATS, Indiana                BARBARA A. MIKULSKI, Maryland
MARCO RUBIO, Florida                 MARK WARNER, Virginia
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
JAMES LANKFORD, Oklahoma             MAZIE K. HIRONO, Hawaii
TOM COTTON, Arkansas
                 MITCH McCONNELL, Kentucky, Ex Officio
                     HARRY REID, Nevada, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                  Desiree Thompson Sayle, Chief Clerk
                                
                                
                                CONTENTS

                              ----------                              

                              JUNE 7, 2016

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Feinstein, Hon. Dianne, Vice Chairman, a U.S. Senator from 
  California.....................................................     2

                                WITNESS

Gibson, Susan, Nominated to be Inspector General of the National 
  Reconnaissance Agency..........................................     3
    Prepared statement...........................................     6

                         SUPPLEMENTAL MATERIAL

Letter dated June 3, 2016, from Benjamin A. Powell to Senator 
  Richard Burr and Senator Dianne Feinstein......................    26
Letter dated June 6, 2016, from Stephanie Barna to Senator 
  Richard Burr and Senator Dianne Feinstein......................    28
Letter dated June 4, 2016, from John C. Inglis to Senator Richard 
  Burr and Senator Dianne Feinstein..............................    30
Letter dated June 3, 2016, from Robert S. Litt to Senator Richard 
  Burr and Senator Dianne Feinstein..............................    32
Questionnaire for Completion by Presidential Nominees............    34
Additional Prehearing Questions..................................    49
Letter dated April 25, 2016, from the Office of Government Ethics 
  to Senator Richard Burr........................................    67

 
                    NOMINATION OF SUSAN GIBSON TO BE
                   INSPECTOR GENERAL OF THE NATIONAL
                         RECONNAISSANCE OFFICE

                              ----------                              


                         TUESDAY, JUNE 7, 2016

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:31 p.m. in Room 
SH-216, Hart Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Committee Members Present: Senators Burr, Feinstein, Risch, 
Rubio, Collins, Blunt, Cotton, Wyden, Heinrich, King, and 
Hirono.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. I'd like to call the hearing to order.
    Ms. Gibson, congratulations on your nomination to be the 
first advised and consent Inspector General for the National 
Reconnaissance Office. You have an impressive background both 
within the intelligence community and the Department of 
Defense, which I believe will serve you well in your new 
assignment.
    I'd also like to welcome your husband Tim, who is in the 
audience today, and I thank him both for his support for you 
and his distinguished service to our country.
    In many cases, inspector generals are the eyes and ears of 
their respective agencies' leadership, and they can be for 
Congress as well. Through critical oversight of the Executive 
Branch operations, they can provide useful assessments of 
performance and identify areas for improvement. We need 
efficiency of effort across government now more than ever. I 
feel strongly that effective and independent inspector generals 
can help us achieve that goal.
    The NRO's classified budget is significant, and the NRO 
Inspector General plays a vital oversight role in detecting and 
hopefully deterring any fraud, waste, or abuse within the NRO. 
As we conduct our own oversight of the NRO, we may look to your 
office for its opinions on the programs that are functioning 
well or may need improvement.
    As the NRO's Inspector General, much of your work will of 
necessity be classified. This means that there will most often 
not be public airings of your assessments. As a result, 
Congress and the American people must have full confidence that 
your findings are objective, independent, and entirely 
supported by the facts.
    Ms. Gibson, I've reviewed the material provided by you 
prior to this confirmation hearing and have spoken with you 
personally. I'm confident that you're a person of high 
integrity and well qualified for this job. Thank you again for 
being here today, for your years of service to our country, and 
I look forward to your testimony.
    I now recognize the Vice Chairman.

 OPENING STATEMENT OF HON. DIANNE FEINSTEIN, VICE CHAIRMAN, A 
                  U.S. SENATOR FROM CALIFORNIA

    Vice Chairman Feinstein. Thanks very much, Mr. Chairman.
    I want to congratulate our prospective Inspector General. 
I'd like to welcome her family, and maybe next time we'll get a 
smaller room. But we should all feel very comfortable; plenty 
of space.
    In 2013 this Committee included in the Intelligence 
Authorization Act a requirement for Senate confirmation of the 
inspectors general for the National Reconnaissance Office and 
the National Security Agency. So, Ms. Gibson, you're the first 
nominee to be considered by the Senate for the NRO position.
    This month the NSA Inspector General will be stepping down, 
and the CIA has been without a Senate-confirmed inspector 
general since January of 2015. Given the importance of IGs, I 
believe these gaps in service are unacceptable. Last June I 
wrote to the President to urge him to nominate an IG for the 
CIA. Today I renew this request and ask him to ensure NSA does 
not languish without a Senate-confirmed IG.
    Ms. Gibson, you and I recently had the opportunity to meet 
and discuss your nomination, and I want you to know that I 
personally appreciated our frank discussion, which demonstrated 
your understanding of the role of the IG and the need to be 
principled, objective, and effective in your oversight of 
virtually every aspect of the NRO.
    If confirmed, it will be your job to ensure that the NRO 
remains free of waste, fraud, and mismanagement, while avoiding 
politicization of the office. You will also have to support 
efforts to drive the organization toward more efficient and 
effective operations. I believe that you have the background to 
carry out this mission.
    It's also important that you recognize, which I believe you 
do, your responsibility to keep this committee fully and 
currently informed about the concerns you may identify at the 
NRO. I don't want to sugarcoat it, but this is really a big 
job. It's a big job in part due to NRO's size and the 
complexity of its mission. You're going to be required to dig 
deep into some very technical and complicated programs, 
including some of the most classified and also expensive 
programs.
    But it's also a big job because it comes with an extra 
responsibility of conducting oversight of an organization in 
which most activities are conducted in secret. The duty to the 
American public cannot be overstated here. This committee is 
charged with ensuring the intelligence community operates in a 
manner that's legal, efficient, and abides by the values of the 
American people. This requires effective and independent 
inspectors general to support us in this task.
    So it's our expectation that, if confirmed, you will make 
full use of the authorities provided to you as an inspector 
general and keep this committee clearly advised. So I will ask 
in my question time how you intend to do our oversight, so that 
the committee can understand your vision for this office.
    So congratulations on the nomination and thank you for 
being here. I look forward to our discussion.
    Thanks, Mr. Chairman.
    Chairman Burr. Thank you, Vice Chairman.
    Ms. Gibson, I'm going to ask you to stand and raise your 
right hand.
    Do you solemnly swear to give this committee the truth, the 
full truth, and nothing but the truth, so help you God?
    Ms. Gibson. I do.

TESTIMONY OF SUSAN GIBSON, NOMINATED TO BE INSPECTOR GENERAL OF 
               THE NATIONAL RECONNAISSANCE OFFICE

    Chairman Burr. Please be seated. I'll ask you to answer the 
five standard questions the committee poses to each nominee who 
appears before us. They just require a simple yes or no answer 
for the record.
    One, do you agree to appear before the committee here and 
in other venues when invited?
    Ms. Gibson. Yes, sir.
    Chairman Burr. Two, if confirmed do you agree to send 
officials from your office to appear before the committee and 
designated staff when invited?
    Ms. Gibson. Yes.
    Chairman Burr. Three, do you agree to provide documents and 
any other materials requested by the committee in order to 
carry out its oversight and legislative responsibilities?
    Ms. Gibson. Yes.
    Chairman Burr. Four, will you both ensure that your office 
and your staff provide such materials to the committee when we 
request it?
    Ms. Gibson. Yes.
    Chairman Burr. And five, do you agree to inform and fully 
brief to the fullest extent possible all members of this 
committee of intelligence activities and covert action, rather 
than only the Chair and the Vice Chair?
    Ms. Gibson. Yes, sir.
    Chairman Burr. Thank you very much, Ms. Gibson.
    We'll now proceed to your opening statement, after which 
I'll recognize members by seniority for five minutes each of 
questions. The floor is yours.
    Ms. Gibson. Thank you very much, Chairman. Good afternoon, 
Chairman Burr, Vice Chairman Feinstein, and distinguished 
members of the committee. Thank you for the opportunity to 
appear before you today as you consider my nomination to be the 
Inspector General for the National Reconnaissance Office. I 
also appreciate the opportunity I've had to meet with several 
of you and to hear your concerns for the NRO and for the 
intelligence community at large.
    I'm deeply honored that the President nominated me for this 
position and I'm grateful for the support of both Director 
Clapper and Director Sapp. If confirmed, I look forward to 
working with you, with Director Sapp, and with the fine women 
and men of the NRO and the NRO Inspector General's Office to 
further the NRO's mission.
    Before going any further, I would like to recognize my 
husband Tim, who joins me here today. A week from today is our 
36th wedding anniversary. Tim and I met in high school and both 
had full Army careers. We supported each other all along the 
way. It was very much a team. We had a great deal of fun and 
we've raised two amazing daughters, Katie and Joanna, who are 
both here in spirit, but have very busy, full, and interesting 
lives and couldn't make it, unfortunately.
    I'd also like to acknowledge publicly the support I've 
received from my parents, but particularly from my mother, 
Claudette Green. I'm the first person in my family, which 
includes my brother, my sister, and nearly 20 cousins, to 
graduate from college. I couldn't have accomplished this 
without the love and support of my remarkable mother, who's now 
80. But, like my daughters, she is still busy and leading a 
very full life and is unable to join us today.
    I would like to thank my friends, my co-workers, many of 
whom are here today--thank you--and my many mentors. Life is a 
team sport and so is public service. As one of my mentors, 
Stephanie O'Sullivan, says: ``There's no end to what we can 
accomplish if we don't care who gets the credit.'' I couldn't 
agree more, and I'm thankful for the wonderful team that helped 
me along the way.
    To briefly address my qualifications for this position, my 
22 years in the Army JAG Corps encompassed a broad legal 
practice, to include criminal law and investigations, 
government contracting and fiscal law, international 
agreements, domestic and international crisis response, human 
intelligence operations, and privacy and civil liberties. My 
time in the Army also impressed on me the importance of 
building and nurturing strong teams and effective teams.
    I joined the intelligence community while I was still 
wearing my Army colonel's uniform, first at the Defense 
Intelligence Agency and then as part of DNI Negroponte's 
original legal team. I later retired from the Army and joined 
the civilian ranks at ODNI. I've supported all four DNIs and 
have touched on virtually every aspect of the mission. I helped 
stand up the office, assisted with drafting multiple 
intelligence community policies, helped rewrite Executive Order 
12333, and regularly provided advice and counsel as we worked 
through many issues affecting the intelligence community.
    As a result of these experiences, I'm well grounded in 
intelligence law and policy and in many other areas of law 
relevant to the mission of the NRO and its Inspector General, 
to include fiscal law, whistleblower protections, ethics, 
procurement law, and procurement integrity.
    Most important, during my years in government I've learned 
and re-learned the importance of conducting a careful and 
unbiased analysis of the facts and the law, acting with 
integrity and honesty and proceeding with openness and 
inclusion. These are the foundations of good government and 
they are also foundational to conducting effective oversight.
    My experience at ODNI has made me acutely aware of the 
essential role of the NRO in the national security of this 
country. I'm also aware of the growing risks to NRO's mission.
    I recognize that if I'm confirmed this committee will have 
high expectations for my performance and for the performance of 
the NRO IG's office. I share those same expectations. If 
confirmed, I pledge to continue the office's legacy of 
excellence, to use my many years of experience to reduce risks 
and to improve the NRO's efficiency and effectiveness.
    Finally, I also recognize and indeed embrace Congress' 
oversight of the NRO. Congressional oversight is fundamental to 
the checks and balances established in our Constitution and the 
only way that the intelligence community can effectively 
operate in our open and democratic society. If confirmed, I 
will fully support the NRO IG's notification and reporting 
responsibilities and keep the NRO's oversight committees fully 
and currently informed.
    I'm under no illusion that fulfilling the responsibilities 
of this new position will be easy. If confirmed, I pledge to do 
my very best as I continue to serve my Nation.
    Thank you again for your consideration of my nomination and 
I look forward to taking your questions.
    [The prepared statement of Ms. Gibson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Burr. Ms. Gibson, thank you. I thank your husband, 
your daughters, and, yes, I even thank your mother for the fact 
that she made sure you made it through the gauntlet of 
education and bring your expertise to a critical role at the 
NRO.
    With that, I'll recognize myself and then the Vice Chairman 
and then by seniority the members.
    I've met with the NRO leadership many times and stressed 
the need for the organization to streamline their processes to 
more rapidly and affordably field capabilities with the latest 
technologies. As is typically the case, it's difficult to have 
a large organization make fundamental changes in acquisition 
practices without sustained and constant oversight.
    Two questions: Can you describe how the IG currently 
reviews the acquisition of satellite systems at NRO? And how 
often are investigators reviewing program management to ensure 
resources are efficiently and effectively managed?
    Ms. Gibson. Chairman, as we discussed briefly before this 
hearing, I think we both share the same concerns about 
acquisition and the need to streamline acquisition to stay 
ahead of the curve in technology and keep our edge in this 
world, where technology is driving things more and more.
    It is something that I have given a great deal of thought 
to, as to how to go about doing this at the NRO. I think it is 
the same in many other areas. Effective oversight would include 
the audits, the inspections, being present, being there, being 
receptive to the sorts of complaints and concerns that people 
bring to you, and by being a partner oftentimes in the mission 
and taking problems and taking recommendations to the 
leadership often.
    I quite frankly am not familiar yet with how often they're 
doing these inspections and audits. NRO has passed its audits 
for the last several years, which is encouraging and something 
I hope to continue and encourage as the IG. But it's something 
that I think would be clearly a priority and a focus if I was 
confirmed to be the IG at the NRO.
    Chairman Burr. Good.
    Would your office be ready and willing to support our 
efforts to identify organizational or procedural changes 
required to help the NRO become more agile and cost-competitive 
in their acquisition process?
    Ms. Gibson. Certainly, sir.
    Chairman Burr. Great. With that, I'll turn to the Vice 
Chairman.
    Vice Chairman Feinstein. Thanks very much, Mr. Chairman.
    Ms. Gibson, a key purpose of this hearing is to ensure that 
the nominee understands the independent role of the IG in a 
secret organization like the NRO, and that Congress depends on 
an independent, impartial IG to pursue allegations of 
malfeasance such as the NRO has faced in the past.
    The now-retired previous NRO IG, Lanie D'Alessandro, has 
been quoted in the press as saying, and I quote: ``If you're 
going to do this job, well, you risk your future job 
aspirations. It's best you take the job as a swan song before 
you retire.'' End quote.
    From your knowledge, do you agree with this statement? And 
what impediments to your independence do you foresee, and how 
would you ensure your complete independence, upon which this 
committee relies?
    Ms. Gibson. Vice Chairman Feinstein, it's hard to say 
whether I agree with that statement, not having been in the 
position. I think I'm more comfortable answering for you how I 
would keep my independence and sort of my own personal views on 
independence.
    For better or worse, I am at that part of my career where 
this may well be my swan song, so I can start there. However, I 
don't think that's necessary. I've been an attorney, a deputy 
general counsel, for many years. I've given a lot of advice to 
people, advice that they didn't necessarily want to hear. My 
experience has been if you're open, if you're honest, if you're 
unbiased, and if you're giving advice and overseeing things in 
the correct spirit, to improve things, to find efficiencies, 
not to grind axes, that people are more than willing to listen 
to you, even when they find it difficult.
    They may grumble at you. They may not be happy to see you 
come into their office as the ethics official for an agency. 
I've had this happen several times. People aren't necessarily 
happy to see you come through the door.
    But if you give them a day or two, they'll almost always 
thank you for your honest advice. And that's been my 
experience, and I think much of it has to do with your own 
personal integrity and how you approach the position.
    I think the structures of the NRO's IG office are set up 
well for that independence. I think the fact that you have a 
potential appointed Inspector General before you today adds to 
that independence, and I believe that that is a lot of the 
reason that you set up this position that way. I think it will 
add to that independence and the ability to be independent. 
It's something that I will guard and grow, I hope, for the 
office.
    Vice Chairman Feinstein. Thank you.
    In your pre-hearing questions you noted that the current 
staffing allocation for the office--and I quote--``may limit 
its ability to recruit and retain personnel with the skills 
necessary to fully perform its mission.'' Could you expand on 
that comment and describe how the current NRO staffing 
allocations are limiting personnel recruiting and retention in 
the IG's office?
    Ms. Gibson. Yes, ma'am. As you know, the NRO has instituted 
a new system of cadre employees. I was surprised to find out 
how few of the personnel in the NRO IG's office are cadre, as 
opposed to detailees from other agencies.
    My answer said it may be an impediment. I don't have yet 
enough information to know for sure, but I think it's one of 
those things that as the NRO sort of matures this personnel 
process, the IG's office itself needs to take a good hard look 
at that and figure out what we need for cadre, what is 
appropriate to have on maybe a rotational basis or as 
detailees.
    I also think that the NRO across the board and the NRO's IG 
office to perform effective oversight needs some skill sets 
that are sometimes hard to come by. It's very high technology 
fields. Auditors are also sometimes in short supply. So the 
sorts of incentives you need, the sorts of professional 
development you need to ensure that people's skills stay 
current and sharp and to ensure that they have the skills 
needed to oversee these highly technical programs, are 
something that are going to require constant nurturing if I'm 
confirmed as the IG.
    Vice Chairman Feinstein. Let me just quickly point out that 
I think you have raised the Achilles' heel of these agencies, 
and that's rotating people in and rotating them out, because 
when they go out they go back to certain--a certain agency in 
the intelligence community, and that may limit their ability to 
really be fully invested in openness and honesty no matter what 
the cost.
    So I appreciate your knowledge of that and will be very 
interested to see what you will do and how you handle this 
issue.
    Ms. Gibson. Thank you, ma'am.
    Chairman Burr. Senator Collins.
    Senator Collins. First of all, Ms. Gibson, I want to 
congratulate you on your nomination and your willingness to 
accept this important responsibility.
    I would like to hear your views on how you would propose to 
deal with, and indeed welcome, the input of whistleblowers 
within the agency? Recently there have been press reports that 
suggest that whistleblowers in the U.S. Central Command have 
brought forth complaints about how certain intelligence reports 
were treated. In addition, we have seen cases from the VA in 
which whistleblowers appear to have been the subject of 
retaliation and the individuals against whom they were bringing 
complaints were rewarded with bonuses and promotions.
    What would you do to ensure that whistleblowers have easy 
access to your office and that their complaints are carefully 
scrutinized, screened, and when appropriate acted upon?
    Ms. Gibson. Senator Collins, I think you frame it well in 
your question. It's really a two-part process. One is making 
sure that people are encouraged to reach out and that they have 
the information they need to find you to reach out, and that 
you make it as easy as you can for them to reach out to you, in 
confidence if necessary. So I think on the front end, if I were 
confirmed, one of the first things I would do is look at all 
the policies and processes that are in place to both inform the 
workforce, to include the contractor employee workforce, which 
is such a big part of NRO's mission, to inform them of their 
ability to come to the IG's office with any complaints or 
concerns, and then to make sure that all of the mechanisms for 
receiving those complaints and concerns are easy to find, easy 
to use, and confidential when necessary.
    So I think that's the front end of it, is to encourage 
those sorts of complaints and concerns and that they be brought 
to us. Once they come in, then it's crucial that you handle 
them appropriately, that you look into them quickly, and that 
they are a valid complaint, that they're fully investigated, as 
many of the items that you listed with the VA and Central 
Command IG's are now looking into those. I think that's very 
important, for people to know that when once a complaint is 
brought forward something happens to it. Someone really looks 
at it and looks at it fully and fairly and takes care of it.
    If there are reprisals or threats of reprisal for people 
who bring forward these complaints, as you know, under the IG 
Act that's considered an urgent concern and it's a very serious 
matter, and that would require immediate reporting to the 
Director of the NRO and within seven days to the oversight 
committees, because it's that serious if there's reprisals or 
threat of reprisals against potential whistleblowers. I think 
quick action to take care of anyone who starts a reprisal 
action or threatens a reprisal action also then feeds the 
willingness of people to come into the system in the front end 
and make those complaints and take care of things if that's 
simply not tolerated on the back end.
    Senator Collins. Thank you.
    Some inspectors general have experienced problems in 
getting access to documents that they need in order to conduct 
and complete their investigations. Should you encounter that 
sort of stonewalling or noncooperation with an investigation, 
would you report that to this committee?
    Ms. Gibson. Senator Collins, if something like that 
happened--and it's one of the first things I actually asked the 
staff at the NRO when they briefed me a few weeks ago, and they 
assured me that they haven't had those problems there, and I 
think that says a lot about the office itself.
    But it's certainly something I would guard against, and if 
I felt like I wasn't getting the information that I needed I 
would first try to resolve it at the lowest level. It's 
typically the best way to go. Sometimes it's a 
misunderstanding. And I'd bring it to the leadership of the 
NRO. I'd advise them to work with their general counsel to get 
advice on whether it was proper to withhold the information.
    If it came down to it, I would certainly inform this 
committee and seek whatever assistance I needed, use subpoena 
authority if appropriate and if necessary. There are many ways 
to make that happen. And I would certainly inform this 
committee and request any assistance I thought I needed.
    Senator Collins. Finally, since my time has almost expired, 
I would just urge you to focus on NRO's acquisition policies 
and major acquisitions. In my experience as head of the--when I 
was Chairman of the Homeland Security Committee, which was and 
is the major oversight committee in the Senate, we found that 
the IGs were invaluable in identifying acquisition problems, 
often before they resulted in cost overruns or contract 
failures, particularly in the information technology area.
    So I will write a question for the record on that to submit 
to you. But I would urge you to give that area your attention. 
Thank you.
    [The information referred to was not available at the time 
of publication.]
    Ms. Gibson. Thank you, Senator.
    Chairman Burr. Senator Wyden.
    Senator Wyden. Thank you very much, Mr. Chairman.
    Ms. Gibson, thank you for being here and for your many 
years of public service. I share the view of the Chair and the 
Vice Chair. This is a really important job. In particular, your 
office is in the position of awarding very large government 
contracts in secret. So it's absolutely essential to have 
oversight from a strong inspector general.
    Now, my colleague from Maine has, as is usually the case, 
asked very good questions on this issue of whistleblowers, and 
I want to just follow it up in one regard. Chairman Grassley is 
the chair of the Whistleblowers Caucus. I am the vice chair. As 
you know, there have been these press reports over the years 
alleging retaliation against whistleblowers by senior 
officials.
    I'm not asking you to confirm the reports, but I think that 
any NRO employee who read those press reports might conclude 
that going to the Inspector General to warn that taxpayer 
dollars are being ripped off could be hazardous to their 
career.
    Just two questions: Do you understand why employees would 
feel that way?
    Ms. Gibson. Certainly, sir. If they read reports like that, 
I can understand why they might.
    Senator Wyden. I'd like to know whether, if confirmed--I 
believe you will be confirmed; I've heard only good things 
about your service. When you're confirmed, are you going to 
have a meeting with the employees and inform them about how 
they will be protected from retaliation? Because I think that's 
really one of the keys when there's a history, that somebody 
new comes in, brings them all together, and says: This is how 
you will be protected from retaliation. Will you do that?
    Ms. Gibson. Senator, I'll make it a priority.
    Senator Wyden. Can't ask for more than that.
    One last question with respect to kind of policy issues. I 
think what I've learned over the years is it's typically easier 
for inspector generals to investigate cases of wrongdoing by a 
single individual than it is to look at these systemic problems 
in major programs, because when you look at the bigger problems 
you often run into resistance. You've got the sort of status 
quo kind of crowd.
    How do you plan to ensure that your investigators aren't 
afraid to ask hard questions and to really look at the big kind 
of problems, which historically is where you bump up against 
most resistance? And I think that's what the Vice Chair was 
talking about with the comments, and I've got a whole sheaf of 
these comments. How do you think you can help to set the 
climate so that the big problems are going to be investigated?
    Ms. Gibson. Senator, I believe that it would start with how 
you develop your workplan every year. The Investigations 
Section would be where I would look to for those sort of single 
bad actor sorts of investigations that you mentioned. I think 
it's the Inspections and Audits Sections that I would actually 
look to for these larger, potentially systemic issues.
    I think speaking with all of the stakeholders, coming to 
this committee to get your views on things that you may be 
seeing that you'd like looked into, having an open mind, 
sitting down and taking the time to sort of step back and get 
out of the daily grind for a while you work on this long-range 
plan and think strategically about what the larger problems may 
be. And I think they've set up a pretty good process for that 
at NRO that I've seen for developing their work plan. It's 
something I would want to look into more and perhaps refine 
after I got there, if I'm confirmed, and roll along as the year 
goes.
    I believe they're in the middle of a work year now, so 
there should be some opportunity coming into the next work year 
to effect that plan. But I would certainly also look to this 
committee and the other oversight committees for any systemic 
issues that you're seeing to feed into that work plan for 
inspections and audits.
    Senator Wyden. I'm planning to support your confirmation 
and look forward to your service. Thank you.
    Ms. Gibson. Thank you, sir.
    Chairman Burr. Senator Heinrich.
    Senator Heinrich. Thank you, Mr. Chairman, and thank you 
for holding this hearing today.
    I want to say congratulations, Ms. Gibson, on your 
nomination. Thank you for joining us today for one of our rare 
open hearings.
    I see from your record that you not only have a 
distinguished legal career, but a long and distinguished 
military career as well. So thank you for your continued 
service to our country, and I certainly wish you well.
    The role of the Inspector General is critical. We rely on 
them and their staffs to conduct robust, independent review and 
oversight of agency activities, and to give us assurances that 
federal agencies are meeting the letter and the spirit of the 
law in carrying out their duties.
    For these reasons, I'd like to state for the record my 
concern that the Administration has not nominated a new 
Inspector General for the CIA in almost a year and a half, ever 
since David Buckley left the office in January of 2015. A 
position of such importance should not be vacant and I am 
disappointed that the Administration has not made this the 
higher priority.
    As I noted, the independence of the IG in any agency is 
central to our confidence that the investigations are conducted 
objectively and fairly. This benefits both the complainant and 
the target of an investigation. It's also why this committee 
took steps to make the NRO IG a presidentially appointed and 
Senate-confirmed position. In fact, you will be the first NRO 
IG to be Senate-confirmed, a distinction that I am sure has not 
been lost on you.
    Being able to raise difficult issues with senior officials 
and agency directors is a prerequisite, a necessary quality for 
an IG. So in your opinion, what are the measurable indicators 
of real independence for an IG? And more specifically, what 
actions would you take if a senior IC official sought to 
somehow prevent you from conducting an adequate audit or 
investigation?
    Ms. Gibson. Sir, if I thought that someone, a senior 
official or anyone, at NRO or in the intelligence community was 
seeking to impede an investigation or an audit, I would first 
have a conversation with them if it was a senior official, 
straight up have that conversation. The Secretary of Defense is 
the only person that I read about in the statute who has the 
authority to do that, and only for a vital national security 
interest, after consultation with the DNI. If it were that sort 
of a reason, that requires then a notification to the 
committees that that investigation or audit has been stopped 
for those reasons.
    Otherwise, I would come to this committee if I couldn't 
resolve it myself, if there weren't ways to work through it. I 
think oftentimes it's just a matter of having open and honest 
conversations. I'm reminded, quite frankly, of my time in the 
JAG Corps, which typically we weren't on the firing line and in 
the front lines, although that's changed over time, 
unfortunately. We used to talk about those moments as a ``JAG 
Purple Heart moment,'' where you would go into the office and 
you just stand up and say what you had to say and take the hits 
if you took the hits. And like I said, eventually, a day or two 
later, they would usually come around and say: Thank you; I 
needed to hear that, and let's work through it.
    I don't have a problem doing that when I need to, and I 
think I've had lots of practice at it. And if I need to do it, 
if I'm confirmed as the IG, I'm ready to do it.
    Senator Heinrich. I think we all appreciate your candor. 
It's critical for this role.
    Although the NRO IG is independently appointed and 
confirmed, you're still accountable to the IC IG and to the 
Department of Defense IG. What is your view of those 
relationships and how will you manage potential disagreements 
with either entity?
    Ms. Gibson. Senator, I can't think of a better experience 
for learning how to deal with the interface between the 
intelligence community and the DOD than my nearly 11 years at 
the ODNI, particularly having come out of DOD. I find the more 
that I deal with these issues, there are rarely conflicts that 
can't be resolved. Typically, when you get to the bottom of any 
issue or problem, if you're looking at it in a good government 
way and a way where you can make helpful progress moving 
forward, people's interests start to align. That's what I tend 
to look for when I start seeing those conflicts, as I start 
looking for where the interests align, and bring both parties 
to the table and have that open and honest discussion to find 
those areas.
    I've found typically, if you do that, you can and you can 
make progress and move forward in a cooperative way. That's 
what I would seek to do.
    Senator Heinrich. I just want to say thank you for your 
willingness to serve in this position. It takes a lot to put 
yourself out there, and I think we all appreciate it very much.
    Ms. Gibson. Thank you, sir.
    Senator Heinrich. Thank you, Chairman.
    Chairman Burr. Senator Rubio.
    Senator Rubio. Thank you.
    Ms. Gibson, in your opening statement you take credit for 
helping stand up the Office of the Director of National 
Intelligence and to rewrite Executive Order 12333. Can you 
describe--and perhaps you have, and I apologize; I had another 
committee meeting--your role and how you wrote this order?
    Ms. Gibson. Initially there was a team of two, me and the 
Chief of Policy at ODNI, who were given the task of starting to 
look at, if we were going to update EO-12333--which had not 
been updated since the IRTPA, which passed in 2004--how would 
you update it to recognize sort of these new roles, the new 
interfaces? Much of the executive order had not been updated at 
all for many, many years. So the missions of the various 
intelligence community elements.
    We went into it with an idea of making those updates, with 
the knowledge that we would make very few changes to Part 2 of 
the order, which dealt with the privacy and civil liberties 
protections, and we made very, very few changes to that.
    We then did what has worked so well in so many other 
instances. We got the leadership of the intelligence community 
together and said: Please take off your element hats and tell 
us what needs improving in this executive order for a more 
smoothly running intelligence community?
    We got those inputs and we started drafting. We spent a 
long time drafting the proposed language. It was very much like 
my prior experience in negotiating international agreements, 
quite frankly, by the time we worked our way through. But that 
was my main role and, quite frankly, it was most of what I did 
for approximately a year of my time at the ODNI.
    Senator Rubio. The inspector generals serve an important 
role in our system in terms of the oversight and ensuring that 
safeguards are in place. It's crucial that people be able to 
trust them. So if you're confirmed, can you describe a little 
bit what you think the best way is to communicate to your 
workforce that the safeguards afforded to potential 
whistleblowers are such that any potential whistleblowers would 
feel comfortable reaching out to the Office of Inspector 
General?
    Ms. Gibson. Senator, I think there's two things that an 
inspector general or anyone can do in those sorts of 
circumstances. The first thing is you have to say it and you 
have to say it often, and you have to communicate it well and 
you have to make it so that people can come to you and feel 
like they are actually welcome to come to you.
    Then, once they come to you, you have to follow through 
appropriately: with an investigation if an investigation is 
warranted; if there are reprisals or threats of reprisals, by 
dealing with those promptly and effectively. That creates then 
a cycle that feeds on itself and that continues to encourage 
people to come forward.
    So it's both the communication and the follow-through, 
which you hope will bring more communication.
    Senator Rubio. You stated in your response to a prehearing 
question that there weren't any challenges facing the NRO IG. 
However, from open press accounts from 2014 it appears there 
were significant cultural impediments to the independence of 
the Office of Inspector General. I'm looking at one article in 
particular, the 28th of October, regarding the deputy director 
of the National Reconnaissance Office.
    If you're confirmed, how do you intend to maintain the 
independence of your office and that of your staff from some of 
the issues that have been outlined in those 2014 cases?
    Ms. Gibson. Senator, I think if I were confirmed the fact 
that I am a Senate-confirmed IG would also add to my 
independence in that position. I think that was part of the 
reason for this being made a Senate-confirmed position. So I 
think that would help, to start with.
    I think that the office, from what I've seen--and I don't 
have all the facts of those earlier allegations, but from what 
I've seen recently--they've already made great strides forward. 
They have a very strong personnel system that they run internal 
to the IG, so that others in the NRO can't make personnel 
decisions that affect the office, but it's the leadership of 
the IG's office making those decisions. I think that's 
important.
    I think it's important for your people to know that if 
they're feeling those sorts of pressures that they can come to 
you as the IG and bring those concerns to your attention so 
that you can deal effectively with them. I think oftentimes for 
an IG, much like for a general counsel, your role is to be that 
layer that protects your people from undue influence so that 
they can accomplish the job that they need to, and I would look 
to do much the same if I were confirmed as the IG.
    Chairman Burr. Senator King.
    Senator King. Thank you, Mr. Chair.
    Ms. Gibson, who appointed you to this job?
    Ms. Gibson. I have not been appointed yet, sir.
    Senator King. Who nominated you for this job?
    Ms. Gibson. President Obama nominated me.
    Senator King. I think that's a very important point. You 
weren't nominated by the head of the NRO or the head of the IC. 
Everybody has said this, but I want to put a really fine point 
on it. You have one of the most important jobs in the United 
States Government, particularly because of the nature of the 
intelligence community, which is immune from much of the 
scrutiny of the public in many ways that the Department of 
Agriculture, the Department of the Interior is, with outside 
groups and lobbying groups and press and everything else. 
Therefore we have to have--it's an IG-squared job in my view, 
that you have to be fiercely independent.
    I hope you will take that. You use one word in your 
testimony that made my ears prick up, which was ``partner.'' I 
don't want you to be anybody's partner over there. I want you 
to be--my high school football coach used to say he wanted us 
agile, mobile, and hostile. That's where you have to do this, 
because this committee can't function without a truly 
independent IG in these intelligence community agencies that is 
responsible to the President of the United States and to this 
Congress.
    Can you reassure me on this point?
    Ms. Gibson. Sir, I can assure you that I'd do my very best. 
I believe that I would be independent. As you state, the 
nomination from the President, confirmation and appointment if 
I'm confirmed, would add to that independence.
    As I mentioned early on, I truly do expect this to be my 
swan song, so I don't need to be anyone's friend in order to 
accomplish this job and move on to another job when I finish. 
I've retired once already, from the Army, and I hope to not 
retire more than twice, and I hope to do it in the not too 
distant future.
    So I don't foresee any problems with independence. I would 
certainly hope that if you saw any of those problems as the 
committees who would also help me oversee, that you would let 
me know that you were concerned about that, because I would see 
you as a partner in that, sir.
    Senator King. That's a partnership I approve of. Thank you.
    Let's move on to the question of contracts. You talked 
about the limitations on staff and the fact that the NRO 
administers huge contracts, a lot of taxpayer dollars. How 
about a force multiplier called the GAO? Do you feel there's a 
role for the GAO to monitor and assess some of these contracts, 
just as they do in exactly the same kind of procurement 
situations in the Department of Defense?
    Ms. Gibson. Sir, I believe there's a role for the GAO. I 
know that we've worked out in the intelligence community a lot 
of that interface in recent years. I think it's a role where 
you have to complement and coordinate. Otherwise you're wasting 
resources, oversight resources. So I think it's something that 
you would want to make sure that you found the appropriate 
balance.
    Senator King. But you mentioned in your testimony you need 
auditors, you need engineers, you need people that are contract 
administrators. I assume you don't have all of those resources 
and assets within your office?
    Ms. Gibson. I do, sir.
    Senator King. You have all of the resources to adequately 
assess billion-dollar contracts?
    Ms. Gibson. From what I have been able to ascertain, I have 
a very qualified staff. If I am confirmed and I get in and I 
think I don't have the resources I need, the statute does 
require that I come to the committees and request the resources 
that I think are appropriate.
    I think the one thing that the NRO IG's Office has that is 
unique is it has the expertise and it has the understanding of 
the mission, and it does have technical expertise that doesn't 
reside perhaps elsewhere in the oversight mechanisms. So I 
would hope that the committee would come to the NRO IG to look 
at these problems first, and if there were gaps in expertise 
that were needed, there are also ways to pull in other experts.
    So again, I think, as I said in my opening, much of 
oversight is a team sport. The important thing is to make sure 
that you're putting the right player on the right problem.
    Senator King. I would urge you to think about and learn 
about the capacities of the GAO. Senator Coburn and I sponsored 
an amendment a year ago that allowed the GAO for the first time 
to play a role in the intelligence community on facilities.
    I think we need to think further. Again, you're talking 
about efficiency and resources. We've got an agency that is 
very capable of doing this function and I urge you to make that 
a part of your toolkit as you move forward in this position.
    Finally, I want to compliment you as well, and I'm 
delighted that you're taking on this challenge. Given your 
experience both in the JAG Corps and at the IC, I think you're 
the right person for the right job at the right time. But human 
nature being what it is, we all want to be friends and popular 
with our coworkers. You've got to be willing to be difficult 
and very aggressive, because again this is different from the 
IG of another agency. This is one where there aren't that many 
people watching, and that puts a special responsibility, it 
seems to me, on the job of the IG within the IC.
    So I want to thank you and I look forward to working with 
you.
    Ms. Gibson. Thank you, sir.
    Chairman Burr. Senator Hirono.
    Senator Hirono. Thank you.
    Ms. Gibson, it's good to see you again, and I can echo the 
comments of my colleagues to say that your job is particularly 
important because you're dealing with a community of actors for 
whom transparency is not necessarily their number one priority.
    So let me ask you this. I know that ODNI has been working 
in recent years to enhance public understanding about the 
intelligence community, its authorities and oversight of its 
activities and programs. The ODNI recognizes that increased 
transparency in the IC will help increase trust that Americans' 
civil liberties are protected and that their taxpayer dollars 
are being well spent.
    What do you believe is the role of transparency in the 
Office of the NRO IG, and do you believe there is a way to 
create unclassified versions of reviews and audits and 
otherwise make the public more aware of the IG's work than has 
been done in the past?
    Ms. Gibson. Thank you, Senator. I will say to start that 
I'm a firm believer in transparency and have been fully behind 
the efforts at the ODNI to be more transparent. I agree that we 
can't always be transparent about exactly what we are doing, 
but we should be more and more transparent about how we are 
doing it and what the oversight mechanisms are that are in 
place to make sure that the authorities that the intelligence 
community has are not abused.
    So, first, I'm a proponent of transparency. How many of the 
IG reports could be released I think would depend on the topic. 
I think I would look for the topics that can be made public. I 
know that they've published several of their reports in the 
past, and I would look to continue to do that.
    Also, we have worked quite a bit to figure out how to write 
things so that you separate the classified from the 
unclassified and not tangle it up to the extent that once 
you've redacted it that it's hard to understand. So much of it 
comes with how you write the report and how you explain things. 
So I would look to continue those sorts of efforts that are in 
place and be more transparent wherever possible.
    Senator Hirono. I think that kind of commitment is very 
necessary as you do your audits and write your reports, 
because, as you say, if you write it in a way where redacting 
therefore results in making no sense that does not help the 
public.
    In 2012 a former NRO IG was quoted in a news article saying 
that he wasn't surprised by allegations against an NRO official 
regarding the handling of contracts. He noted that, and I 
quote, ``You're talking about a lot of money at this agency and 
a culture within the intelligence community that isn't really 
comfortable with the idea of transparency. Generally speaking, 
people in the agency are ethical, but there is a certain 
dependency on contractors and closeness with contractors that 
can create an awkward environment.'' End quote.
    Do you consider closeness with contractors a problem with 
the NRO IG and, if so, how would you prevent or minimize this 
problem?
    Ms. Gibson. Ma'am, I don't have enough experience yet to 
say whether there's a problem within the IG's office with 
contractors. If you're asking about the larger NRO, if 
confirmed it's certainly something that any IG would have to 
keep a very close eye on at the NRO.
    Contractors play a very important role there. They're 
essential to the mission. But at the same time, they are not 
government employees and you always have to keep in mind the 
idea of what is an inherently governmental function and what 
isn't and who's actually making the decisions, which is I think 
what's really important when you talk about those inherently 
governmental functions. The people making the decisions should 
be government employees and not contractors.
    So I think it's the sort of thing you would have to keep an 
eye on at all times.
    Senator Hirono. Well, human nature being what it is, those 
who deal with--the government officials who deal with 
contractors on an ongoing basis--and there's a lot of money at 
stake--I think that that kind of awkward closeness is 
particularly of concern. So that is an area that I would think 
that there should be enhanced scrutiny on your part, to make 
sure that these kinds of cozy relationships do not result in 
misuse of taxpayer money.
    Ms. Gibson. I share your concern, ma'am, and I'll make that 
a priority if I'm confirmed.
    Senator Hirono. I have a few more questions, but I think 
I'll stop here. Thank you, Mr. Chairman.
    Chairman Burr. Senator Blunt.
    Senator Blunt. Thank you. Thank you, Chairman. Ms. Gibson, 
thanks for being here with us today.
    The NRO has its feet both in the Title 10 and the Title 50 
world. In your statement for the record, you mention the 
growing risks that you believe are there for the NRO mission. I 
think a lot of people on this committee believe that better 
coordination between the space-related activities of the 
Defense Department and the intelligence community are needed.
    How do you see your office playing a role in improving the 
Title 10 and Title 50 relationships?
    Ms. Gibson. Sir, I see the main place where that 
relationship comes into play in the way that you're talking 
about in the requirements process as programs are conceived and 
plans are built for those programs. So I think the oversight of 
the IG as those processes work their way through, because those 
processes are so crucial for both the Title 10 and the Title 
50, which are very intertwined at NRO--it's an agency that 
supports a broad, broad range of requirements.
    So I think oversight of that requirements process is 
probably where the IG could be most useful. But I would 
certainly look for other ways, if I were confirmed, to get at 
any other connective tissue that really needed a good shaking 
out and a good look.
    Senator Blunt. Well, I'll just repeat. I think several 
people on this committee think that steps in newer directions 
aren't nearly as clear to us as they might otherwise be, and 
that would be a place where you could have a view of both 
departments, both the Title 10 and the Title 50 world, in ways 
that others don't.
    You know, you discuss also in your statement your 
involvement in establishing the Office of the Director of 
National Intelligence when that was set up and drafting several 
of the directives involved in setting that up. There are broad 
efforts, obviously, to foster greater sharing of what's 
acquired and integrating what we learn from that.
    What are some of the pitfalls you think face the NRO in 
accomplishing the tasks that were envisioned by the 
establishment of the DNI?
    Ms. Gibson. Senator, I actually think the NRO was probably 
affected, but not perhaps affected as much as some of the other 
intelligence community elements, and in the ways that they were 
affected it's ways that they have helped the change along.
    So one of the first couple of policies that I actually 
worked on when I started at the ODNI was the intelligence 
community directives on major system acquisitions. So this more 
flexible, spiral development process that was put in place for 
majority National Intelligence Program-funded major system 
acquisitions I think was something that the NRO supported, and 
so it was a cooperative process, if you will, and I think they 
put a lot of that in place.
    I've seen a great deal of cooperation. I've seen a lot of 
maturity in the processes, with the Systems and Resource 
Analysis Office and the maturity of the cost estimates that are 
happening and are getting better and better as we go along. 
Then I'm very, very encouraged actually also by the analysis 
that's being done for--this is what you hoped to accomplish, 
these are the requirements you set in place, this is how you 
thought you would use it, and then to look at it on the back 
end and say, is that what happened, did you get what you 
thought you were going to get out of this? If not, why not?
    So this analysis that's happening between the ODNI in 
partnership with the NRO and with DOD I think has helped it 
progress toward more effective and efficient acquisitions. I'm 
not saying that there isn't still progress to be made. But I do 
think that they're moving in a hopeful direction there, and if 
I was confirmed as the IG it's something that I actually feel 
strongly about and would work diligently to continue improving.
    Senator Blunt. Well, I would think that it's a great place 
for the IG to do just exactly the kind of evaluation of what 
results are being produced versus the goals that were being set 
that you would have. And certainly your effort in establishing 
the DNI and working with that is clearly a great background for 
this job.
    Thank you, Mr. Chairman.
    Ms. Gibson. Thank you, sir.
    Chairman Burr. Senator Cotton.
    Senator Cotton. Thank you.
    Ms. Gibson, thank you for appearing here today, and thank 
you for once again answering the call to service for our 
country.
    I want to associate myself with what Senator King, Senator 
Hirono, and Senator Blunt have said about the importance of the 
IG in the intelligence community in general and the NRO in 
particular because of the often secret nature of the work that 
you do. And, as Senator Blunt said, the NRO has a dual 
structure under both the military and the intelligence 
community.
    I am one of four members on this committee who also sits on 
the Armed Services Committee, the only Republican. I'd just 
like to get the same commitment that you gave to Senator King 
about this committee of keeping the Armed Services Committee 
informed where appropriate as well.
    Ms. Gibson. Absolutely, sir.
    Senator Cotton. Thank you.
    You've received some very stellar letters of recommendation 
from esteemed individuals, such as Chris Inglis and Bob Litt. 
They say that your character and integrity are of the highest 
caliber and beyond reproach. I think that's evidenced by your 
up-front disclosure of a 1999 Army JAG professional 
responsibility inquiry, which I understand was dismissed as 
unfounded.
    Ms. Gibson. Yes, sir.
    Senator Cotton. Could you simply explain a little bit more 
about that matter in your own words, for those who have not had 
a chance to review the thorough explanation of it in writing?
    Ms. Gibson. Yes, sir. In the mid-1990s I was the Deputy 
Staff Judge Advocate at Aberdeen Proving Ground. While I was 
there--they actually sent me to Aberdeen, by the way, to get 
out of criminal law for a while. Aberdeen Proving Ground is 
where they try to break things and test things, and it tends to 
work on contracting instead of criminal law.
    So I was one of the few senior attorneys there who had much 
investigative or criminal law experience. While I was there, I 
was the primary legal advisor for the Ordnance Center and 
School, which had multiple allegations of sexual assault and 
sexual abuse of trainees by drill sergeants and instructors. It 
was a prolonged and very high-profile investigation.
    When the first round of courts martial were final months 
later, the Army Inspector General came in and did a thorough 
review. During that review there was an allegation made that I 
had inappropriately told investigators not to read rights to 
certain trainees, Article 31 rights, which are similar to 
Miranda but also have to include the crime that the person is 
suspected of.
    There was a full investigation of that. The Army Inspector 
General turned it over to the Army JAG Standards of Conduct 
Office. They conducted a very long and thorough investigation 
of that, and it was eventually dismissed as unfounded.
    Senator Cotton. Well, thank you for sharing that for us. I 
know it was a high-profile matter, and again I think it 
reflects very well on your character that you've disclosed it 
up front, as well as that it was dismissed as completely 
unfounded. And it's also reflected in the fact that the Army 
continued to put you in positions of greater trust and 
responsibility, as the intelligence community has as well.
    Ms. Gibson. Thank you, sir.
    Senator Cotton. One final question. I note from question 12 
of your questionnaire that you are on the board of directors of 
the City of Fairfax Theatre Company and you are general counsel 
of Women in Technology. And in question 20 you say that you 
intend to resign both of those positions.
    Ms. Gibson. Yes, sir.
    Senator Cotton. Is that required by law or regulation?
    Ms. Gibson. It's something that the Administration asks of 
its nominees and appointees if they're confirmed, so that they 
can concentrate on the job at hand.
    Senator Cotton. Do you think being a volunteer member on a 
city theater company would distract you from your job?
    Ms. Gibson. I intend to keep volunteering with the theater, 
sir, but not be on the board.
    Senator Cotton. Well, I understand that there are some 
positions outside our work that might conflict with our work, 
but maybe this committee should examine whether or not we need 
to require government employees to resign from volunteer 
positions like boards of directors of volunteer theater 
companies. I think it's a good thing for government employees 
to be involved in their community.
    Ms. Gibson. Thank you for your support, and I can get you 
tickets for ``The Music Man'' this summer.
    Senator Blunt. He can't accept them.
    [Laughter.]
    Senator Cotton. I can't accept them probably, and probably 
the appreciation would be lost on me, I suspect. But thank you 
for again answering the call of service.
    Ms. Gibson. Thank you, sir.
    Chairman Burr. I thank my colleagues.
    If nobody seeks other questions, let me share with members: 
It is the Vice Chairman's and my intent to vote Ms. Gibson out 
of committee on Thursday. To our colleagues that are on Armed 
Services and to the one or two that are on Homeland Security, 
they also have a sequential process in this. The faster they 
can choose not to have a hearing, the faster we could get Ms. 
Gibson to the floor. It's certainly my intent to try to get Ms. 
Gibson's nomination in place as quickly as we can. So any help 
that you can be on other committees that have responsibilities, 
I'm grateful to you.
    With that, Ms. Gibson, thank you for your testimony today. 
Thank you for the sacrifices you've given, not only for the 
military, but in your career with government. We're grateful to 
the sacrifices your family have made. And the last thing, if 
you would today, you thank your mother for us.
    Ms. Gibson. I will, sir.
    Chairman Burr. This hearing's adjourned.
    [Whereupon, at 3:33 p.m., the hearing was adjourned.]

                         Supplemental Material
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

  
                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
